'4

1.

1.

uni

514

No.

n

Supreme Court, U.S.
FILED

JUL 1 8 2020
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

DANIEL HAROLD WILLIFORD,
Petitioner
VS,

UNITED STATES OF AMERICA,
Respondent

On Petition for a Writ of Certiorari to

the United States Court of Appeals for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Pro Se
Daniel Harold Williford
16130 Barcica Lane
Cornelius, North Carolina 28031
(704) 860-8929

i

QUESTIONS PRESENTED

1.

Tfie .Securities Act of 1934, 15 U.S.C. § 78, et seq., provides a broad but not

all-inclusive definition of “security”. This Court has previously recognized that
promissory notes with a term of 90 days or shorter are not a security, nor are unique
agreements negotiated one-on-one between private parties.
The question presented is: If a private individual gives an IOU for 90 days,
or other private document, which details the terms of their agreement to his
personal friend or relative, should such an agreement constitute a “security” for the
purposes of the federal security laws and therefore be subject to the “family
resemblance” test for securities or are such transactions excluded since they were
not created nor intended for any sort of public use and rather subject to state
statutes for fraud?

2.

The Appellate Courts are split on whether equitable tolling should apply

where an inmate litigant is prevented from timely filing a NOTICE OF APPEAL as
a result of failure by prison authorities to deliver the District Court’s Judgment to
the inmate upon receipt by the prison authorities. In this case, the United States
Court of Appeals for the Fourth Circuit did not apply equitable tolling and
dismissed the appeal because of a lack of timeliness without consideration of the
delays beyond the petitioner’s knowledge or control. Other courts of appeal have
i

held that equitable tolling applies in similar situations.
The question presented is: Should equitable tolling apply where an inmate,
claiming actual innocence, was not provided with a copy of the judgment from the
District Court when it was received by prison authorities, thereby preventing the
timely filing of a NOTICE OF APPEAL within the 14 days as required by court
rules.

LIST OF PARTIES

All parties appear in the caption of the Case on the cover page.

RELATED CASES

t United States v. Williford, Case No. 3;13-cr-329, U.S. District Court for the
Western District of North Carolina. Judgement entered October 27, 2015.
• Williford v. United States, Case No. 3:13-cv-751, U.S. District Court for the
Western District of North Carolina, Judgement entered March 13, 2018.
• United States v. Daniel Williford, Case No. 19-7797, U.S. Court of Appeals for
the Fourth Circuit. Judgement entered February 21, 2020. Petition for
Rehearing Denied April 27, 2020.

ill

X

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT

13

CONCLUSION

24

PROOF OF SERVICE «

25

INDEX TO APPENDICES
APPENDIX A - Opinion of the United States Court of Appeals for the
Fourth Circuit

26

APPENDIX B - Opinion of the United States District Court for the
Western District of North Carolina

27

APPENDIX C - Order denying rehearing by the United States Court of
Appeals for the Fourth Circuit
APPENDIX D - Full text of 15 U.S.C. § 78b., § 78j., and § 78ff.

IV

28
29

TABLE OF AUTHORITIES CITED
CASES

PAGE
NUMBER

Bellah v, First National Bank, 495 F.2d 1109,1114 (CA5 1974)..___

18

Brown v. Johnson, 306 U.S. 19, 26 (1939)

20

Cochran v. Kansas, 316 U.S. 255)(1942)

21

Exchange Nat. Bank of Chicago v. Touche Ross & Co.
544 F.2d 1126, 1137-38 (2d Cir. 1976)
Ex parte Hull, 312 U.S. 546 (1941)

18
21

Great Western Bank & Trust v. Kotz,
532 F.2d 1252, 1253 (CA9 1976)

18

Holland v. Florida, 560 U.S. 631 (2010)

21, 23

Jackson v. Davis, 933 F.3d 408 (5th Cir. 2019)

22, 23

Marine Bank v. Weaver, 455 U.S. 551, 560 n. 11,
71 L. Ed. 2d 409, 102 S. Ct. 1220 (1982)

16
17, 18, 19

Pennsylvania v. Finley, 481 U.S. 551, 45565 (1987)

21

Reves v. Ernst & Young, 494 U.S. 56, 67 (1990)

18

Ross v. Moffitt, 417 U.S. 600, 616(1974)

21
v

Williford v. United States, WDNC No. 3:13-cv-751-MOC

11, 12, 13,
18

STATUES AND RULES
15U.S.C. §78a.

3, 14, 15

15 U.S.C. §78b.

3, 15, 29

15 U.S.C. §78c.(a)(10)

4, 15

15 U.S.C. § 78c.(a)(40)

16

15 U.S.C. § 78j.(b)

5, 8, 14, 31

15 U.S.C. § 78ff.

5, 8, 33

28 U.S.C. § 1254(1)

1,7

Fed R. App. P. 41(d)(1)

13

17 CFR § 240.10b-5

7

CONSTITUTIONAL PROVISIONS
UNITED STATES CONSTITUTION, Section 9
UNITED STATES CONSTITUTION, Amendment VI
UNITED STATES CONSTITUTION, Amendment XIV, Section 1......

vi

2, 20

2, 10, 15, 23
2, 20

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW
The opinion of the United States Court of Appeals for the Fourth Circuit appears at
Appendix A to the petition and is unpublished.

The opinion of the United States District Court for the Western District of North
Carolina appears at Appendix B to the petition and is unpublished.

JURISDICTION
The date on which the United States Court of Appeals for the Fourth Circuit
decided my case was February 21, 2020.
A timely petition for rehearing was denied by the United States Court of Appeals
for the Fourth Circuit on March 6, 2020, and a copy of the order denying rehearing
appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTION
Section 9
The Privilege of the Writ of Habeas Corpus shall not be suspended, unless when in
Cases of Rebellion or Invasion the public Safety may require it.
Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
Amendment XIV
Section 1. All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

2

FEDERAL STATUTORY LAW
Securities Exchange Act of 1934
15 U.S.C, § 78a. Short title
This chapter may be cited as the “Securities Exchange Act of 1934.”

15 U.S.C. § 78b. Necessity for regulation (see full text in Appendix D)
For the reasons hereinafter enumerated, transactions in securities as commonly
conducted upon securities exchanges and over-the-counter markets are effected
with a national public interest which makes it necessary to provide for regulation
and control of such transactions and of practices and matters related thereto,...
(1) Such transactions
(a) are carried on in large volume by the public generally and in large part
originate outside the States in which the exchanges and over-the-counter
markets are located and/or are effected by means of the mails and
instrumentalities of interstate commerce;

(3) Frequently the prices of securities on such exchanges and markets are
susceptible to manipulation and control, and the dissemination of such prices gives
rise to excessive speculation, resulting in sudden and unreasonable fluctuations in
the prices of securities ...

3

15 U.S.C. § 78c. Definitions and application
(a) Definitions
When used in this chapter, unless the context otherwise requires—

(10) The term “security” means any note, stock, treasury stock, security future,
security-based swap, bond, debenture, certificate of interest or participation in any
profit-sharing agreement or in any oil, gas, or other mineral royalty or lease, any
collateral-trust certificate, preorganization certificate or subscription, transferable
share, investment contract, voting-trust certificate, certificate of deposit for a
security, any put, call, straddle, option, or privilege on any security, certificate of
deposit, or group or index of securities (including any interest therein or based on
the value thereof), or any put, call, straddle, option, or privilege entered into on a
national securities exchange relating to foreign currency, or in general, any
instrument commonly known as a “security”; or any certificate of interest or
participation in, temporary or interim certificate for, receipt for, or warrant or right
to subscribe to or purchase, any of the foregoing; but shall not include currency or
any note, draft, bill of exchange, or banker’s acceptance which has a maturity at the
time of issuance of not exceeding nine months, exclusive of days of grace, or any
renewal thereof the maturity of which is likewise limited.

4

15 U.S.C. §78j. Manipulative and deceptive devices (see full text in
Appendix D)
It shall be unlawful for any person, directly or indirectly by the use of any means or
instrumentality of interstate commerce or of the mails, or of any facility of any
national securities exchange—

(b) To use or employ in connection with the purchase or sale of any security
registered on a national securities exchange or any security not so registered, or any
securities-based swap agreement any manipulative or deceptive device or
contrivance in contravention of such rules and regulations as the Commission may
prescribe as necessary or appropriate in the public interest or for the protection of
investors.

15 U.S.C. § 78ff. Penalties (see full text in Appendix D)
(a) Willful violations; false and misleading statements
Any person who willfully violates any provision of this chapter (other than
section 78dd-l of this title), or any rule or regulation thereunder the
violation of which is made unlawful or the observance of which is required
under the terms of this chapter, or any person who willfully and knowingly
makes, or causes to be made, any statement in any application, report, or
document required to be filed under this chapter or any rule or regulation
thereunder or any undertaking contained in a registration statement as
5

provided in subsection (d) of section 78o of this title, or by any self-regulatory
organization in connection with an application for membership or
participation therein or to become associated with a member thereof which
statement was false or misleading with respect to any material fact, shall
upon conviction be fined not more than $5,000,000, or imprisoned not more
than 20 years, or both, except that when such person is a person other than a
natural person, a fine not exceeding $25,000,000 may be imposed; but no
person shall be subject to imprisonment under this section for the violation of
any rule or regulation if he proves that he had no knowledge of such rule or
regulation.
(c) Violations by issuers, officers, directors, stockholders, employees, or agents
of issuers
(1)
(A) Any issuer that violates subsection (a) or (g) of section
78dd-l of this title shall be fined not more than $2,000,000.
(B) Any issuer that violates subsection (a) or (g) of section
78dd-l of this title shall be subject to a civil penalty of not more
than $10,000 imposed in an action brought by the Commission.
(2)

(A) Any officer, director, employee, or agent of an issuer, or
stockholder acting on behalf of such issuer, who willfully violates
subsection (a) or (g) of section 78dd-l of this title shall be fined
6

not more than $100,000, or imprisoned not more than 5 years, or
both.
(B) Any officer, director, employee, or agent of an issuer, or
stockholder acting on behalf of such issuer, who violates
subsection (a) or (g) of section 78dd-l of this title shall be
subject to a civil penalty of not more than $10,000 imposed in an
action brought by the Commission.

28 U.S.C. § 1254. Courts of appeals; certiorari; certified questions
Cases in the courts of appeals may be reviewed by the Supreme Court by the
following methods:
(1) By writ of certiorari granted upon the petition of any party to any civil or
criminal case, before or after rendition of judgment or decree;

17 CFR § 240.10b-5 - Employment of manipulative and deceptive devices.
It shall be unlawful for any person, directly or indirectly, by the use of any means or
instrumentality of interstate commerce, or of the mails or of any facility of any
national securities exchange,
(a) Tb employ any device, scheme, or artifice to defraud,
(b) Tb make any untrue statement of a material fact or to omit to state a
material fact necessary in order to make the statements made, in the light of
the circumstances under which they were made, not misleading, or
7

(c) To engage in any act, practice, or course of business which operates or
would operate as a fraud or deceit upon any person,
ip connection with the purchase or sale of any security. (Sec. 10; 48 Stat. 891; 15
U.S.C. 78j)

8

STATEMENT OF THE CASE
Petitioner incorporated his primary business, VeloceNet, Inc., on July 20, 1994.
VeloceNet grew from serving four programming and network Management Clients to
contracts for service for over 27,000 homes, businesses and schools. Petitioner
invested all his family’s savings from his work as a USAirways pilot (captain) into
the business. The company built and operated the following until it failed in March,
2009 as a direct result of the shutdown in bank lending in the great recession of
2008-2010:
o fiber-optic networks in 18 neighborhoods located in North and South
Carolina
o its own wireless network infrastructure covering five counties,
o a 15,000 sq.ft, data center in Charlotte, NC and
o

Operated and expanded to five counties the service footprint of its
regulated utility, Connect Communications, LLC, a North Carolina
Competitive Local Exchange Carrier (“CLEC”).

• On December 18, 2013, Petitioner was indicted on one count each of
securities fraud and wire fraud and five counts of money laundering “in
connection with the sale of securities, to wit: the Velocenet
investment contracts. All in violation of Title 15, United States Code,
Sections 78j(b) and 78ff, Title 17, Code of Federal Regulations, Section
240.10b-5,” as stated in the BILL OF INFORMATION (United States v.
Williford, WDNC Case No. 3:13-cr-329).
9

Each of the so-called Velocenet investment contracts was negotiated
personally hv Petitioner on separate occasions in separate one-on-one
discussions with each individual and each note was a unique agreement
between Petitioner’s companies and the individual.
No contract was ever marketed to the public nor intended for any public
offering, but rather each contract was created after an agreement was
reached with the individual and each document was created to memorialize
the understanding as good business practice dictates.
Each individual was personally known hv Petitioner through prior personal,
business, religious or other personal civil relationships; in fact, many
relationships had existed for over 15 years.
In pre-plea discussion. Petitioner’s defense attorney indicated that it was his
opinion that Petitioner’s contracts were “securities” under the federal
securities law. Based on this counsel, Petitioner agreed to a guilty plea.
In the Factual Proffer only the results of Petitioner’s actions and the effects
of his actions on the investors were addressed; no recitation was made of the
particular circumstances under which the agreements were reached nor
when and how they were created.
On Jul 22, 2014, the United States District Court for Western District of
North Carolina (hereafter, WDNC) accepted the Factual Proffer as the basis
of Petitioner’s admission of guilt in conjunction with his plea agreement
without investigation into the nature of the underlying agreements. The
10

District Court assumed the subject agreements were “securities” and subject
to the Federal Securities Law.
• Petitioner was sentenced on October 27. 2015. to 110 months orison and
three years supervised release for one count of Security Fraud under U.S.C.
15:78j(b) and 15:78ff, and remanded to the custody of McKean Federal
Correctional Institution (hereafter, McKean FCI) located in Pennsylvania.
• Petitioner filed a 28 U.S.C. S 2255 Motion Seeking to Vacate Sentence on
October 20. 2016. by depositing the motion via special mail at McKean FCI
claiming actual innocence as Ground One because of (1) a lack of factual
basis for Petitioner’s guilty plea pursuant to the definition of “security” under '
the Federal Security Laws and (2) ineffective assistance of counsel violative
of the Sixth Amendment (Williford v. United States, WDNC Case No.
3:13-cv-751)
• Petitioner was relocated from McKean FCI to the Federal Prison Camp
Bennettsville, South Carolina (hereafter, FPC Bennettsville), departing
McKean FCI on August 31, 2017 and arriving in Bennettsville on October 4,
2017.
• On March 18. 2018. the WDNC issued an ORDER Denying the 2255 Motion
to Vacate (WDNC No. 3:13-cv-751-MOC). The Court declined to issue a
certificate of appealability. The order was signed by District Judge Max O.
Cogburn, Jr on 3/13/2018.

11

• As a pro se litigant, Petitioner was served by US Mail at McKean FCI after
Petitioner’s transfer from McKean FCI, and instead of being forwarded to
FPC Bennettsville the legal mail was returned to the Clerk of the WDNC as
“undeliverable” since Petitioner was no longer at that facility. The result was
that Petitioner never received the ORDER and Civil Case
3:16-cv-00751-MOC was closed.
• On November 11, 2019, Petitioner wrote the Clerk of Court for WDNC,
requesting an update on Case 3:13-cr-00751-MOC. Request received
November 14, 2019.
• On November 14, 2019, the Clerk of Court for WDNC responded with a
docket sheet and a copy of the ORDER by the Court and JUDGMENT IN
CASE dated March 13, 2018. This information was received by Petitioner on
November 20, 2019.
• On November 24. 2019. Petitioner placed his NOTICE OF APPEAL in the
Inmate Mail System at the FPC Bennettsville; the notice was received by the
Clerk of WDNC on December 3, 2019.
• On December 10, 2019, Petitioner received the “Informal Preliminary
Briefing Order” from the United States Court of Appeals for the Fourth
Circuit (designated Case #19-7797)(hereafter, Fourth Circuit).
• On December 30. 2019. Petitioner mailed the INFORMAL BRIEF for his
appeal to the Clerk of the Fourth Circuit and it was received by the Clerk on
January 2, 2020 (United States v. Daniel Williford, Case No. 19-7797).
12

• On February 21. 2020. the Fourth Circuit issued its JUDGMENT dismissing
Petitioner’s appeal (Case No. 19-7797) of the ruling from the WDNC in Case
3:13-er-00751-MOC for lack of jurisdiction because the notice of appeal was
not timely filed. Petitioner received a copy of this judgement on March 2,
2020.
• On March 3. 2020, Petitioner mailed a timely filing of his Petition for
Rehearing which was received by the Clerk and filed on March 6, 2020. A
STAY OF MANDATE under Fed R. App. P. 41(d)(1) was issued on March 6,
2020.
• On April 27. 2020. the Fourth Circuit denied the petition for rehearing at the
direction of the panel consisting of Judge Motz, Judge Harris, and Judge
Quattlebaum.

13

REASONS FOR GRANTING THE WRIT
ARE PRIVATE PARTY FINANCIAL AGREEMENTS SUBJECT TO
ANTI-FRAUD PROVISIONS OF THE SECURITY LAW?
Without the Court’s review and correction, all private parties
entering into any financial arrangements mortalized by private
agreements are subject to prosecution by the Government under the
anti-fraud provisions of §10(b) of the Securities Exchange Act of 1934 (15
U.S.C. § 78j.(b)). The Court’s review is needed to clarify the application of the
federal security laws to standard forms of contract normally used by private parties
to memorialize financial agreements negotiated between the parties. Since the
threshold issue in any securities case is whether the underlying transactions and
agreements comprise a “security” within the meaning of the federal securities laws,
by granting this Petition, the Court can emphasize to the Government, the Courts
and Defense Attorneys its long standing (but overlooked) guidance on the
importance of examining the context of transactions underlying a potential
securities fraud action to ensure they meet the required threshold.
EXCLUSIVELY PRIVATE, UNIQUE TRANSACTIONS PROSECUTED
Each of the Petitioner's transactions had the following characteristics typical
of private agreements and transactions:
• Each person was known personally by Petitioner prior to the
negotiation.

14

• Each transaction was negotiated personally, one-on-one, by the
individuals.
•

The unique agreement they negotiated was not designed nor intended
to be traded publicly.

• The notes were created at the conclusion of the negotiations as a record
of the particulars reached between the individuals.

NO REGARD GIVEN TO THE CONTEXT OF THE TRANSACTIONS
“When used in this chapter, unless the context otherwise requires—” are the
beginning words under “(a) Definitions” of 15 U.S.C. § 78c. The context is
all-important for the definition of the term “security” under 15 U.S.C. §78c.(a)(l0).
Because a “security” is defined in the statute as “any note, stock, ...certificate of
interest or participation in any profit-sharing agreement... investment contract...”
the Government, the Defense Attorney and the District Court all assumed the
related agreements were securities because they all looked past the fact that this
definition for “security” only applies within the context of the Securities Exchange
Act of 1934. The intent of Congress and the purposes of the statute are clearly
stated in 15 U.S.C. § 78b and focuses on “transactions in securities as commonly
conducted upon securities exchanges and over-the-counter markets”. It is improper
to apply these statutes to any other transactions outside the intended scope of
Congress as specifically stated in the statute itself. This intent was further
affirmed by Congress when it amended the Securities Exchange Act of 1934 with
15

the “Small Company Capital Formation Act of 2011” enacting subsection (b)(5) (15
U.S.C. § 78c.(a)(40)), which specifically exempted even public equity offerings of less
than $50 million from the broad regulations of the Securities Exchange Act of 1934
(hereafter, the ‘34 Act). Applying the ‘34 Act in a vacuum (i.e., without
consideration of the purposes and context of the particular transactions and
documents in the case at bar - private, personal, unique, negotiated one-on-one,
etc.) and focusing exclusively on the actions of the Petitioner, led to the following
errors:
• The Government over-broadlv used the federal securities law to prosecute
Petitioner even though his transactions fell outside the intent of Congress
when they enacted the Securities Exchange Act of 1934, the definition of
“security” contained in the ‘34 Act and the opinion of this Court, particularly
in Marine Bank v. Weaver. 455 U.S. 551 (1982).
• The Defense Attorney rendered Constitutionally deficient advice during
nre-plea discussions when he failed to analyze and recognize Petitioner’s
transactions did not meet the threshold to be securities and improperly
advised Petitioner that the transactions were subject to federal securities law,
inducing Petitioner to seek a plea agreement. This failure went to the heart
of the defense and constituted ineffective assistance of counsel in violation of
Petitioner’s Sixth Amendment rights.
• The Record contains no examination of the transactions, but rather, only a
listing of Petitioner’s actions in relation to the investors.
16

• The District Court committed plain error when it accepted the guilty plea
from Petitioner because the District Court failed to investigate and consider
whether the transactions occurred "in connection with the purchase or sale of
any security”. Since Petitioner’s transactions do not meet the threshold to be
a “security”, Petitioner’s plea lacked the factual basis required for security
fraud and his sentence was without legal basis.
The Court has specifically expressed the importance of recognizing the
context of the definition of “security” and its application to unique private
transactions, such as the Petitioner’s, in Marine Bank v. Weaver (455 U.S.
551)(1982). In this unanimous opinion, This Court recognized the intent of
Congress in the federal securities laws to regulate the public markets, not private
transactions.

CASE LAW
While the Court has examined various transactions since the enactment of
the Securities Exchange Act of 1934, the Court dealt with the application of the
security law to private transactions in Marine Bank v. Weaver. 455 U.S. 551 (1982).
This Court granted certiorari to decide whether two instruments, a conventional
certificate of deposit and a business agreement between two families, could be
considered securities under the antifraud provisions of the federal securities laws.
The Court rejected the view that a private agreement, even if it gave a share of
profits was not a "certificate of interest or participation in any profit-sharing
17

agreement" or an "investment contract" subject to the security laws because no
prospectus was distributed to the parties involved or to other potential investors
and the unique agreement they negotiated was not designed to be traded publicly.
Because of this understanding, the Court found “Whatever may be the consequences
of these transactions, they did not occur in connection with the purchase or sale of
"securities”. Marine Bank v. Weaver.

However, the District Court in its denial of

the Petitioner’s 2255 Motion did not reference Marine Bank v. Weaver, rather it
looked past the threshold issue of context and examined the agreements on the
basis that they were representing financial transactions. Because of this, the
District Court inappropriately applied the Court’s “family resemblance” test to the
transactions (Reves v. Ernst & Young. 494 U.S. 56, 67 (1990))(quoting Exchange
Nat. Bank of Chicago v. Touche Ross & Co.. 544 F.2d 1126, 1137-38 (2d Cir. 1976))
when it specifically quoted, “A note is “presumed to be a ‘security,’ and that
presumption may be rebutted only by a showing that the note bears a strong
resemblance ... to one of the enumerated categories of instrument.” Id.” (See WDNC
Williford v. United States, No. 3:13-cv-751). But the Petitioner’s agreements fell
outside the intended scope of the security laws so the effect was to use the securities
laws as a broad federal remedy for all fraud contrary to the intent of congress
(Great Western Bank & Trust v. Kotz. 532 F.2d 1252, 1253 (CA9 1976); Bellah v.
First National Bank. 495 F.2d 1109, 1114 (CA5 1974)). So, the issue is not
whether fraud was committed, as emphasized by the District Court, but
whether the private agreements such as the ones underlying this Petition
18

fall under the scope of the federal security laws. As This Court has stated a
court must look further and analyze the transaction “on the basis of the content of
the instruments in question, the purposes intended to be served, and the factual
setting as a whole.” Marine Bank v. Weaver. 455 U.S. 551, 560 n. 11, 71 L. Ed. 2d
409, 102 S. Ct. 1220 (1982). The Government, attorneys and courts need to be
reminded of this important threshold issue in security cases to prevent the
miscarage of justice as has occurred in the Petitioner’s case.

19

ADDITIONAL ISSUE RAISED AS A RESULT OF THE CASE:
A CONFLICT EXISTS AMONG THE FEDERAL COURTS OF APPEAL ON THE
QUESTION OF WHETHER EQUITABLE TOLLING IS TO BE APPLIED TO A
DELAY IN FILING CAUSED BY THE ACTION OR INACTION OF PRISON
OFFICIALS WHICH AFFECTS THE ACCESS OF PRO SE INCARCERATED
PRISONERS TO THE COURTS.
This Court has often emphasized the fundamental importance of the writ of
habeas corpus in our constitutional scheme (United States Constitution, Section 9),
and Congress has demonstrated its solicitude for the vigor of the Great Writ. The
Court has steadfastly insisted that “there is no higher duty than to maintain it
unimpaired.” Brown v. Johnson. 306 U.S. 19, 26 (1939). Since the basic purpose of
the writ is to enable those unlawfully incarcerated to obtain their freedom, it is
fundamental that access of prisoners to the courts for the purpose of presenting
their complaints may not be denied or obstructed; however, the Petitioner has
experienced obstruction to the appeals court due to the actions of prison officials not
ensuring legal mail they received was delivered to the incarcerated pro se inmate
Petitioner. Since the Government prevents prisoners from having access to the
court’s electronic system (PACER) and instead requires them to rely on the mail for
the status of his case as an incarcerated pro se litigant, the Court should resolve
this issue by addressing the issue of timeliness caused by INBOUND mishandling
handling of legal mail by prison officials.

20

The Petitioner’s appeal to the United States Court of Appeals for the Fourth
Circuit was dismissed “for lack of jurisdiction because the notice of appeal was not
timely filed.” This lack of timeliness was a direct result of the Government’s lack of
affirmative action regarding the Petitioner’s legal mail which it received from the
District Court but failed to ensure this mail was actually delivered to the prisoner.
However, the United States Appeals Court for the Fifth Circuit recently excused a
21-month delay in filing because of the failure of the state to notify a petitioner that
his state habas petition was denied. This Court has established beyond doubt
prisoners have a constitutional right to the courts (Ex narte Hull. 312 U.S.
546)(1941). The Court stated “the state and its officers may not abridge or impair
petitioner’s right to apply to a federal court for a writ of habeas corpus.” IsL, at 549
(also see Cochran v. Kansas. 316 U.S. 255)(1942). Moreover, this Court has
consistently affirmed that the Fourteenth Amendment obligates a State “to assure
the indigent defendant an adequate opportunity to present his claims fairly in the
context of the State’s appellate process.” Pennsylvania v. Finlev. 481 U.S. 551,
45565 (1987) (quoting Ross v. Moffitt. 417 U.S. 600, 616(1974)). The Court has
addressed the need for “equitable tolling” when delays in sending inmate legal filing
are delayed by prison officials actions beyond the control of the inmate. Holland v.
Florida. 560 U.S. 631 (2010). But what of the opposite situation, where the
actions of prison officials in screening inbound mail prevent a pro se
inmate litigate from receiving a copy of a judgement sent from a court and
these actions cause the inmate to be unaware of a court judgement which
21

requires his timely response? Should not the Government in its own prisons
have an affirmative obligation to insure the mail it receives from a court for a pro se
prisoner is actually delivered into the prisoner’s possession? The Fifth Circuit says
yes, but the Fourth Circuit said no to the Petitioner.
WITHOUT THE PETITIONER’S OWN INQUIRY HE WOULD NEVER HAVE
KNOWN OF THE JUDGMENT IN HIS CASE.
After coming to the realization that his conviction for federal security fraud
was unlawful, Petitioner filed a 2255 Motion to Vacate his sentence claiming actual
innocence. Petitioner waited patiently until another pro se inmate litigant who
had also filed a 2255 Motion about the same time in the WDNC (and which was
being reviewed by the same judge as rendered Petitioner’s sentence), received a
judgment. Having received nothing from the WDNC, Petitioner wrote the Clerk of
the WDNC asking for the status of his case. It was then he discovered a judgment
had been issued over a year before. Petitioner immediately filed a NOTICE OF
APPEAL with the Clerk of the WDNC and followed up with an INFORMAL BRIEF
with the Fourth Circuit. The Fourth Circuit denied Petitioner’s appeal, citing lack
of timeliness.
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPLIED EQUITABLE TOLLING IN A SIMILAR CASE.
In the recent case, Jackson v. Davis. 933 F.3d 408 (5th Cir. 2019), the U.S. Court of
Appeals for the Fifth Circuit ruled the “state-created” delay was not something to be
held against the appellant and equitable tolling should be applied to the delay in
22

filing his petition. In Jackson, the Fifth Circuit found the district court failed to
“adequately account for Jackson’s diligence before and after the delay in receiving
notice”. The court quoted Holland v. Florida. 560 U.S. 631 (2010), pointing out “The
diligence required for equitable tolling is reasonable diligence, not maximum
feasible diligence.” Accounting for the fact that Jackson never got TCCA’s denial
notice, his actions before and after filing his state habeas petition showed he was
diligent during the 21 month delay.
The Court’s opinion is needed to protect the constitutional right of access for
incarcerated pro se litigants to the courts when delays in receiving notices of court
action through the mail are beyond the control of the inmate or are caused by prison
or other federal or state officials.

23

CONCLUSION

The fundamental issue before the Court with this petition is whether private
financial transactions between persons who know each other personally and deal
directly with each are subject to the federal securities laws. Considering small
businesses (i.e., firms with fewer than 500 employees) drive the U.S. economy by
providing jobs for over half of the nation's private workforce, the issue before the
Court in this Petition affects a broad cross section of citizens all across the United
States. .Should Petitioner’s prosecution and conviction for security fraud be allowed
to stand, every individual in the United States who creates a promissory note or
other contractual agreement immortalizing a financial arrangement with those they
know personally is potentially subject to prosecution for security fraud, contrary to
the intent of Congress and the prior interpretation of this Court. In addition to this,
the basic constitutional guarantee of the Sixth Amendment right to access the
courts for prisoners who are claiming innocence has and is being infringed upon by
the indifference of government officials. For both these important reasons, this
petition for a writ of certiorari should be granted.

Respectfully submitted,

Daniel Hangi Williford
This

/$

day of July, 2020.
24

APPENDIX A
The opinion of the United States Court of Appeals for the Fourth Circuit follows.

26

